CARD AGREEMENT - PLATINUM ELITE MASTERCARD®,
PLATINUM ELITE REWARDS MASTERCARD, CLASSIC
MASTERCARD & BUSINESS MASTERCARD

Review the information contained in this Agreement about your account. This document, along with the Account
Opening Disclosure, is an agreement between you and Public Service Credit Union. If you have any questions, please
contact us at the phone number on the back of your Card. We agree to lend you money as described in this
Agreement, and you agree to pay us back along with any interest charges and fees that apply. Your use of the Account
or any payment on the Account indicates that you accept the terms of this Agreement.

Definitions

Credit Limit

In this Agreement, the following words have the following meanings:
Account means the revolving credit card account established on your behalf in connection
with the Card
Agreement means this Credit Card Agreement
Card or Cards means the MasterCard credit card(s) issued by us in connection with your
Account
You and your means any person who applies for, signs, or uses the Card
We, us, and our mean Public Service Credit Union (“PSCU”)
YOUR ACCOUNT
Your Account will have a credit limit, which we will publish on your periodic billing
statement. Some of your credit limit may be available for cash advances. We may cancel,
change, or restrict your credit limit or credit availability at any time and for any reason
permitted by law. We are not obligated to allow your Account to go over its credit limit, but if
we do allow your Account to go over its credit limit, you are responsible for the total balance.
If we allow your Account to go over its credit limit we will not charge you a fee, but you agree
to promptly pay the over-the-limit amount at any time if we ask you to do so.

Authorized Use

You are responsible for any use of your Account by anyone you permit to use your Account.
You will not be responsible for the unauthorized use of your Account that occurs after you
notify us orally or in writing of the loss, theft or possible unauthorized use by contacting us at
the number on the back of your Card. In any case, your liability will not exceed $50.00.

Joint Account

If this is a joint Account, each person on the Account is jointly liable for all amounts owed.
We may require any individual on the Account to pay the entire amount subject to this
Agreement. Each person on the Account authorizes every other person on the Account to
use the Card as described in this Agreement. Any person on the Account may close the
Account and the closure will be effective for every other person on the Account.

Secured Card

If you have a Classic MasterCard, your Card is secured by an amount on deposit with us, and
you have separately executed a Credit Card Security Agreement (“Security Agreement”) as
evidence of our security interest, which is incorporated into this Agreement. Specific terms
and conditions related to your secured card and the funds you have provided as a security
interest can be found in the Security Agreement you signed.

Security Interest in
Funds on Deposit

If you have a Business MasterCard, we have a security interest in any funds you have on
deposit with our institution. If you have a Platinum Elite MasterCard, a Platinum Elite
Rewards MasterCard, or a Business MasterCard, we may require you to sign an additional
Credit Card Security Agreement (“Security Agreement”) giving us a security interest in funds
you have on deposit with us as a condition of obtaining credit. If you sign a Security
Agreement, that document is incorporated into this Agreement.

Annual Fee

If your Account has an annual fee under the Rate and Fee Table of this Agreement, you are
responsible for paying the fee every year your Account is open. If your Account has an
annual fee, we will add the fee to your periodic billing statements once per year when the fee
is due.

Payment Due Date

Payments are due on the due date shown on your periodic billing statement, which we will
send you each month. The statement will contain information about how to send us your
payment. You agree that if you do not make the minimum payment by 10 days after the due
date, we may charge you a late fee as described on the Rate and Fee Table in this Agreement.

Minimum Payment

The minimum payment will be the greater of $25, or 3% of the outstanding balance due at the
end of the prior billing period. If the total outstanding balance due is less than $25, the
minimum payment will be the entire balance due.

Application of
Payments

If you have a consumer Card we will apply your payment first to balances with the highest
annual percentage rate (APR), then to the balance with the next lowest APR, and so on. If
you have a Business MasterCard, we may allocate payments however in any way we choose.

Default

Purchases

Your Account will be in default if (a) you fail to make any minimum payment, over-the-limit
payment, or any other required payment by the date the payment is due; (b) you break any
promise to us under this Agreement; (c) we believe you may be unwilling or unable to repay
what you owe (including because of your bankruptcy, insolvency, incapacity, or death); or you
have made a false or misleading statement in any application or representation you have
provided to us. If your Account is in default, we may close it without further notice or decline
to authorize any further charges. We may also demand that you immediately pay the full
unpaid balance and we may begin collections activities. To the extent permitted by law, you
agree to pay all collection costs, court costs, attorneys’ fees, and all other costs of enforcing
our rights under this Agreement.
USING YOUR CARD
You may use your Card to purchase goods and services from merchants and others who
accept the Card. We agree to authorize purchases under the terms of this Agreement.
However, we are not liable if we are unable to authorize a purchase because our authorization
system is not working, or if any merchant or other financial institution refuses to honor your
card.

Cash Advances

Cash Advances are only permitted on the Classic MasterCard, Platinum Elite MasterCard, and
Platinum Elite Rewards MasterCard Cards. You may request that we stop payment on a Cash
Advance check, for the fee disclosed in the Rates and Fees Table.

Balance Transfers

Balance Transfers are only permitted on the Classic MasterCard, Platinum Elite MasterCard,
and Platinum Elite Rewards MasterCard Cards. You may request that we stop payment on a
Balance Transfers check, for the fee disclosed in the Rates and Fees Table.

Foreign
Transactions

Purchases and withdrawals made in foreign countries will be billed to you in U.S. dollars. The
currency conversion rate for international transactions is a rate selected from the range of
rates available in wholesale currency markets for the applicable central processing date, or the
government-mandated rate in effect for the applicable central processing date. In addition,
you will be charged an International Transaction Fee of 1% of the transaction amount for any
card transaction that involves a currency conversion to U.S. dollars and .8% for international
transactions that do not involve currency conversions to U.S. dollars from foreign currency.

How We Will
Calculate Interest

Variable Rate
Information

Illegal Use

If interest charges apply to a balance on your account, we will calculate the interest on each
balance. Different types of transactions, such as balance transfers and cash advances, may
have different interest rates, and balances within each transaction type may also have different
interest rates. We use the average daily balance method (including new transactions) to
calculate interest charges for each balance:
To calculate the Daily Balance for each transaction type, we (a) take the beginning balance
for each day and add any interest from the prior day and any new transactions or other
debits (including fees and unpaid interest charges), (b) subtract any payments or credits and
treat any net credit balance as a zero balance, and (c) the result is the Daily Balance for each
type of transaction.
To calculate the interest charges on your Account, we (a) divide the APR for each
transaction type by 365 to get the daily interest rate, (b) multiply the daily interest rate for
each transaction type by the Daily Balance for the corresponding transaction type for each
day in the billing cycle, and (c) add together the interest charges for each day in the billing
cycle for each transaction type.
We will add transactions and fees to your daily balance no earlier than:
- For new purchases, balance transfers, or cash advances: the date of the transaction
- For cash advance or balance transfer checks: the date the payee deposits the check
- Fees: the date of the related transaction, the date the fee is posted to your Account, or the
last day of the billing cycle, whichever we choose
If your APR is based on the Prime Rate, the APR will increase or decrease with the Prime
Rate. For each billing period, we will use the Prime Rate published in The Wall Street Journal
(or an equivalent published rate) two business days before the closing date of the billing
period. If the Prime Rate causes your APR to change, the new APR will be effective as of the
first date of the billing period for which we calculate the APR. We will apply the new APR to
any existing balances.
OTHER PROVISIONS
You agree not to use or permit anyone else to use your Card unlawfully or for any illegal
purpose, activity, or transaction.

Special Offers and
Promotions

If we make a special offer or conduct a promotion related to your Account, the terms of the
offer or promotion are subject to this Agreement and the Account Opening Disclosures
unless explained otherwise.

Investigation
Authorization

You authorize us to investigate your credit record and verify your credit, employment, and
income, and further authorize any person, organization, company, or personnel office to
furnish information pertinent to evaluation of your creditworthiness upon our request. You
authorize us to obtain information concerning your creditworthiness from consumer
reporting agencies, both now and in connection with updates, renewals, and later credit
extensions.

Assignment

We may assign your Account, amounts you owe, or any of our rights or duties under this
Agreement without further notice to you. You may not assign your rights or duties under this
Agreement.

Communication and
Changes to Your
Information

We may send statements and other communications to the mailing or email address in our
records. You agree to notify us immediately of any change to your contact information.

Changes to the
Agreement

We may change this Agreement after giving you any notice required by law. Any changes will
apply to your use of the Account after the changes become effective, and changes may apply
to unpaid balances subject to our sole discretion and applicable law.

Governing Law

This Agreement will be governed by the laws of the State of Colorado.

